        Department of the Interior
        Office of Inspector General




Audit of Oil and Gas Permitting Process
                Bureau of Land Management



           Report No. W-IN-BLM-0009-2003
                            February 2004

                    .
Description of Cover Photographs – Clockwise from Top Left

         North Fork of the Powder River – Photo Courtesy of Wyoming Game and Fish Department
         Coalbed Methane Drilling Rig, South of Gillette, Wyoming – Photo Courtesy of U.S. Department of
                Energy
         Downtown San Francisco, California, at Night – Photo Courtesy of Declan McCullagh’s Photo
                Gallery Website
         Well Pump (Pump Jack) – Photo Courtesy of U.S. Geological Survey
                       United States Department of the Interior

                                  Office of Inspector General
                                       Western Region
                                           Federal Building
                                    2800 Cottage Way, Suite E-2712
                                       Sacramento, California 95825


                                                                       February 13, 2004
                                                                                    7430
Memorandum

To:        Assistant Secretary for Land and Minerals Management

From:      Michael P. Colombo
           Regional Audit Manager

Subject:   Audit of Oil and Gas Permitting Process, Bureau of Land Management
           (Report No. W-IN-BLM-0009-2003)

        Attached is our final report on the Bureau of Land Management’s (BLM) method
for processing applications for oil and gas drilling permits. We initiated this review
because of current public and Congressional interest in general energy development
issues and more specifically concerns about impediments to developing the nation’s
energy resources.

        We found that BLM’s permitting process was severely compromised by outdated
land use plans and the lack of effective management oversight and accountability of the
application processing function. Specifically, we found that BLM did not anticipate the
rapid development of new energy resources, i.e., coalbed methane, and that processing
times for drilling applications averaged four times longer than BLM’s target processing
time. The lack of monitoring and tracking strategies to trigger land use plan revisions,
assess processing bottlenecks, and appropriately size and align staff has delayed
application processing, which has reduced revenues to operators and federal and state
governments.

        We did not receive an official response to the draft report, despite verbal
extensions to the response due date of January 16, 2004. Accordingly, all eight
recommendations are considered unresolved. The legislation, as amended, creating the
Office of Inspector General requires that we report to Congress semiannually on all audit
reports issued, the monetary effect of audit findings (see Appendix 1), actions taken to
implement our audit recommendations, and recommendations that have not been
implemented.

        Please provide a written response to this report by March 30, 2004. The response
should supply the information requested in Appendix 5. We appreciate the cooperation
shown by BLM staff during our review. If you have any questions regarding this report,
please call me at (916) 978-5653.

Attachment
cc: Director, Bureau of Land Management (MS 5660)
    Audit Liaison Officer, Assistant Secretary for Land and Minerals Management
      (MS 7328)
    Audit Liaison Officer, Bureau of Land Management – Attn: Andrea Nygren
     (MS 1000 L St.)
    Focus Leader for Management Accountability and Audit Follow-up (PPM) (MS 5412)




                                        2
Executive Summary
Audit of Oil and Gas Permitting Process
Bureau of Land Management


The nation’s energy consumption is rapidly                            The recovery of natural gas begins when an
outpacing production. As the primary fuel                             operator who has obtained a lease submits a
for most new electrical power plants and                              permit application (known as an Application
the main source for heating over half the                             for Permit to Drill or APD). BLM then
homes in the United States, natural gas is                            initiates a process to determine whether the
an essential energy resource.                                         APD satisfies administrative and technical
                                                                      requirements. At the same time, BLM
             Home Heating Energy Sources
                 In the United States
                                                                      assesses the environmental impacts
                                                                      associated with the proposed drilling and
                            Other                                     prepares and approves the documentation
                                                 Natural
             Fuel Oil        9%                                       required under the National Environmental
               9%                                 Gas
                                                  53%                 Policy Act (NEPA).1
       Electricity
         29%                                                          We reviewed BLM’s processing of oil and
                                                                      gas drilling permits to determine whether
Source: Data from U.S. Department of Energy, Energy Information
Administration, Annual Energy Review 2001                             permits were processed and approved
                                                                      efficiently. We found that the following
Both the President and Federal Reserve                                problems significantly delayed and impeded
Chairman have emphasized the necessity of                             BLM’s ability to effectively process and
increasing domestic natural gas supplies.                             approve APDs.
Federal lands in the West produce 5 percent
of our oil and 11 percent of our natural gas                           The failure to systematically update land
and are expected to grow in importance in                               use plans to reflect changing conditions,
the future. Western natural gas reserves,                               in particular, the rapid growth of natural
which are sufficient to heat about 60                                   gas extraction from coalbed seams
million homes for 60 years, are located in                              (coalbed methane).
six geologic basins, with current production
centered in two—the Powder River Basin                                 The lack of effective management
in Montana and Wyoming and the San Juan                                 oversight and accountability.
Basin in New Mexico and Colorado.
                                                                      The effect of outdated land use plans can be
The Bureau of Land Management (BLM) is                                readily seen in the Powder River Basin,
the federal agency responsible for                                    where land use plans that failed to
approving permits to allow operators to                               adequately anticipate the development of
drill for oil and gas on federal lands and, as                        coalbed methane gas had resulted in
such, plays a pivotal stewardship role in                             litigation and a BLM-imposed moratorium
managing natural gas reserves. BLM                                    on oil and gas drilling in the Basin.
assesses the use of these reserves, along
with other competing uses, in land use
                                                                      1
plans prepared in conjunction with the                                 BLM cannot approve drilling permits until appropriate
                                                                      environmental reviews and documentation are complete.
public.


                                                                  i
The effect was a backlog of APDs, delays                 processing environmental analyses and
in gas production, and unrecoverable                     block surveys of cultural resources to cover
royalties of up to $24 million a year                    larger areas, as appropriate. In fiscal year
because of gas being drained from federal                2001, BLM also began updating its entire
lands by wells on state and private lands.               planning base, consisting of more than
From 1987 through October 2002, the                      160 land use plans, and has identified
federal government lost $52 million2 in                  21 high-priority land use plans (collectively
royalties (see Appendix 1). An                           referred to as Time Sensitive Plans3) for
environmental impact statement (EIS) for                 critical update.
the Wyoming portion of the Basin, issued
in January 2003, updated the land use plans              We commend BLM’s efforts to expedite the
for the area; BLM projects about                         APD approval process, but believe that
67,000 wells will ultimately be developed                further action is needed to meet the nation’s
throughout the entire Basin.                             anticipated energy demand, which is
                                                         expected to outpace production.
The lack of effective management oversight
                                                                           Growth in U.S. Energy Consumption
and accountability has resulted in the                                          Is Outpacing Production
(1) inability to efficiently determine the                   (Quadrillion British Thermal Units)

status of APDs; (2) lack of sufficient                       140
                                                                                  Energy Consumption
accountability and direction for APD                         120

processing; (3) uncertainty as to whether                    100
staffing is appropriate to meet workload                                                           Projected Shortfall
demands; (4) inconsistent interpretation of                  80

APD procedures and documentation                             60
                                                                     Energy Production at 1999-2000 Growth Rates
requirements for site-specific
environmental reviews; (5) inability to                      40

measure performance of the APD process,
                                                             20
and (6) wide variation in processing times,
which average four times longer than                         0

BLM’s target processing time of 30 to                               2000         2005              2010       2015        2020
                                                        Over the next 20 years, growth in U.S. energy consumption will increasingly outpace
35 days.                                                U.S. energy production, if production only grows at the rate of the last 10 years.

                                                          Sources: Sandia National Laboratories and U.S. Department of
                                                          Energy, Energy Information Administration. (Modified)
Other detrimental effects associated with
the inefficient processing of drilling permits
                                                         Our recommendations in this report should
include delayed production for a nation
                                                         assist BLM in removing impediments to
with a growing demand for cleaner energy,
                                                         processing APDs in an efficient and
increasing pressure on prices, and loss of
                                                         environmentally responsible manner.
royalties for state governments.

We noted that BLM has recently
undertaken important initiatives to improve
the permit approval process. In April 2003,
for example, BLM issued guidance to its
field offices to allow new strategies for
expediting APDs, such as simultaneously                  3
                                                           BLM selected these land use plans because they
                                                         (1) covered study areas related to the development of
                                                         energy resources, (2) responded to nationally significant
2
    None of this amount applied to Indian lands.         lawsuits, or (3) had legislatively mandated time frames.



                                                   ii
                                                   .
Contents
                                                                                                              Page

   Background ....................................................................................................1
      Audit Objective and Scope .......................................................................4
      Prior Audit Coverage ................................................................................4
   Impediments to Efficient APD Processing .....................................................5
      Outdated Land Use Plans..........................................................................5
      Lack of Effective Management Oversight and Accountability ................6
      Recommendations...................................................................................11

   Appendices
      1    Classification of Monetary Amounts .............................................13
      2    Scope and Methodology ................................................................14
      3    Organizations Visited or Contacted ...............................................16
      4    Royalties and Drainage ..................................................................18
      5    Status of Audit Recommendations.................................................19
   Figures
      1          Energy Production and Consumption, 1970-2025...........................1
      2          Natural Gas Reserves Located in Six Major Basins ........................1
      3          Photo, Large Holding Pond, Powder River Basin ...........................3
      4          Photo, Settling Tanks, San Juan Basin.............................................3
      5          Average Days to Approve APDs in Fiscal Year 2002
                   by Field Office ............................................................................5
        6        BLM APD Approval Process...........................................................7
        7        Photo, Pipeline Right-of-Way, San Juan Basin .............................10




   Abbreviations:
      AFMSS ......................................... Automated Fluid Minerals Support System
      APD          ............................................................. Application for Permit to Drill
      BLM....................................................................... Bureau of Land Management
      CFR......................................................................... Code of Federal Regulations
      EIA............................................................... Energy Information Administration
      EIS          ......................................................... Environmental Impact Statement
      GPRA         .......................................... Government Performance and Results Act
      NEPA         ......................................................National Environmental Policy Act
      RMP          ................................................................. Resource Management Plan
      TCF          ............................................................................... Trillion Cubic Feet
      TSP          ............................................................................ Time Sensitive Plans




                                                   iii
Background

Demand for energy in the United States is                     Federal lands in the West produce about
growing. As shown in the following                            11 percent of our natural gas, a percentage
U.S. Department of Energy graph                               that is expected to increase in the future as
(Figure 1), growth in energy consumption                      the West’s natural gas reserves are
is outpacing production.                                      developed.
    Energy Production and Consumption, 1970-2025
          (Quadrillion British Thermal Units)
                                                              According to a 2002 U.S. Geological
                                                              Survey assessment of six Western
                                                              geologic provinces or basins,5 these basins
                                                              hold about 183 trillion cubic feet (TCF) of
                                                              technically recoverable6 natural gas
                                                              reserves. These reserves, the second
                                                              largest in the nation after those of the outer
                                                              continental shelf, are sufficient to heat
                                                              about 60 million homes7 for 60 years.
                                                              Natural gas production is currently
                                           Figure 1           centered in two—the San Juan and Powder
Source: U.S. Department of Energy, Energy Information
Administration, “Annual Energy Outlook 2003 with              River Basins.
Projections to 2025”                                          .
                                                                       Natural Gas Reserves Located in Six Major Basins


Natural gas is a significant energy
                                                                                                   Montana

                                                                                                                    Montana Thrust Belt

resource for the United States and is the                                                        Wyoming               Powder River Basin


main source of heating for over half of our                                               Utah
                                                                                                                  Greater GreenWyoming
                                                                                                                  Southwestern River Basin


homes and the primary fuel for most new                                                                Colorado
                                                                                                                      Uinta Piceance Basin



electrical power plants. In his 2001                                                                                 Paradox Basin

                                                                                                                   San Juan Basin

National Energy Policy, the President                                                            New Mexico

addressed the need for increasing the
domestic supply of natural gas. Similarly,
the Chairman of the Federal Reserve
Board has spoken of the need to increase
our imports of natural gas because                                                                                        Figure 2
                                                                  Source: U.S. Geological Survey Fact Sheet 149-02 (Modified)
domestic production is not keeping pace
with increasing demand.4
                                                              5
                                                                The six basins are (1) Southwestern Wyoming in
                                                              Wyoming, Colorado, and Utah - 84.6 TCF; (2) San Juan
                                                              Basin in New Mexico and Colorado - 50.6 TCF;
                                                              (3) Uinta Piceance Basin in Utah and Colorado -
4
  A 2000 Energy Information Administration (EIA)              21.4 TCF; (4) Powder River Basin in Wyoming and
                                                              Montana - 16.5 TCF; (5) Montana Thrust Belt - 8.6 TCF;
forecast stated that between 1999 and 2020, the natural
                                                              and (6) Paradox Basin in Utah and Colorado - 1.5 TCF.
gas consumption of the United States would increase
                                                              6
62 percent, resulting in the need to significantly increase     Technically recoverable refers to resources that are
our imports of natural gas. According to the EIA’s 2003       producible using current recovery technology without
Annual Energy Outlook, the United States now produces         reference to economic profitability.
                                                              7
about 84 percent and imports about 16 percent of the            This number represents the estimated number of natural
natural gas it uses.                                          gas customers in 2001.



                                                                  1
Conditions in the two Basins differ                            What is Coalbed Methane?
significantly. Production in the San Juan
Basin, an older and established field, has                     Coalbed methane gas is natural gas found
already peaked and started to decline.                         inside and around coal seams. The gas is
                                                               held in place by the pressure from the ground
Although about 10,000 new wells are                            overhead and from water in the coal.
projected on federal lands in the next                         Extracting the gas involves drilling a well
20 years, this will only moderate the                          into the coal seam and pumping out the
production depletion rate for the Basin.                       groundwater to release the pressure on the
                                                               gas and allow it to flow to the well where it
                                                               is captured.
The greatest increase in production is
expected to occur in the Powder River                          The quantity and quality of the groundwater
Basin, where development began in the                          varies from area to area. In some areas, the
late 1990s. By the end of 2002, only                           quality of the groundwater may be good
                                                               enough to discharge the water onto the
about 12,000 of about 51,000 projected                         surface. In other areas, the groundwater is of
wells on federal, state, and private lands                     such poor quality as to require special
had been drilled in Wyoming, and only a                        treatment or re-injection. Properly disposing
few hundred of the estimated 5,000 to                          of the groundwater is one of the major
16,000 wells had been drilled in                               environmental concerns in producing coalbed
                                                               methane gas.
Montana. Total Basin volumes are
expected to increase significantly, with
                                                                  Water to             Pump
the vast majority of the increase coming                          separator
from coalbed methane gas.                                         or discharge
                                                                                                Gas to pipeline


BLM8 is the agency within the
Department of the Interior responsible
for leasing federal lands for the                                           Water
exploration and development of oil, gas,
and other energy resources. Energy
resources are developed within the
framework of law governing BLM’s
mission to manage public lands in a                                   Coal bed
                                                                                                Gas
manner that sustains the health,
diversity, and productivity of the lands
and ensures their use and enjoyment by
                                                                 Source: Adapted from U.S. Geological Survey
present and future generations.                                  Fact Sheet FS-110-01


Every action and approved use of lands
managed by BLM is based on land use
plans prepared by BLM in collaboration                        Land use plans for areas of expected
with local, state, and Tribal                                 resource development, such as
governments; the public; and industry.                        developing natural gas reserves, must
                                                              also comply with NEPA requirements
                                                              and include an analysis of the effect of
8
                                                              resource development on the
 Of the over 500 million surface acres of federal land        environment. As part of compliance
managed by the Department of the Interior, BLM
manages over 260 million acres as well as over                with NEPA, BLM identifies alternatives
700 million acres of subsurface federal mineral estate.



                                                          2
and selects the one preferred alternative                     The surface review looks at such
that best resolves the environmental                           factors as roads, well site layout,
consequences of land use decisions.                            methods for containing and
BLM updates the plans, in an ongoing                           disposing of waste materials and
process, to respond to new                                     water (see Figures 3 and 4), and
circumstances. BLM has a total of                              surface reclamation plans. The
162 land use plans9 that lay out                               review can also involve preparing or
management and use options for federal                         reviewing site-specific surveys for
lands under BLM’s jurisdiction.                                archeological and cultural resources,
                                                               threatened and endangered species,
As part of its oil and gas management                          and other environmental concerns.
program, BLM issues permits for post-                          Conditions and concerns often vary
lease activities. Before drilling on                           significantly from well to well within
federal land, an operator must submit an                       the same area.
APD. BLM reviews and evaluates the
operator’s APD to determine if it is
technically and administratively
complete. BLM also prepares or
reviews and approves appropriate
documentation for impacts on the social
and natural environments associated
with the proposed drilling, such as the
effect of roads, pipelines, noise, or the
disposal of waste and water.                                                                                  Figure 3
                                                             Large holding pond for water produced during coalbed methane
                                                                                             extraction, Powder River Basin
                                                                                        Office of Inspector General Photo
The APD approval process comprises
two primary reviews:
 The “downhole” review looks at the
  operator’s drilling plan and the
  geology and physical aspects of the
  well or wells, such as depth, casing
  specifications, and cementing
  requirements. “Downhole”
  requirements are similar from well to
  well within the same area.
                                                                                                              Figure 4
                                                                     Settling tanks holding water produced during coalbed
                                                                    methane extraction prior to re-injection, San Juan Basin
                                                                                        Office of Inspector General Photo
9
  Land use plans include resource management plans
(RMPs), which are decision-making documents                  While the “downhole” review can often
prepared in collaboration with the public to establish       be completed within a week, the surface
land use allocations, multiple-use guidelines, and           review can take months, depending on
management objectives for a given planning area.
EISs, which analyze proposed actions and their effects       the surface conditions encountered and
on the social and natural environments, including            the extent of documentation required,
short- and long-term effects and direct, indirect, and       and is the most time-consuming portion
cumulative effects, are normally prepared in
conjunction with land use plans. RMPs and EISs must          of the APD process.
be released to the public for review and comment.



                                                         3
Overall, the number of days to approve                 Our objective did not include assessing
APDs in fiscal years 2001 and 2002                     the adequacy of BLM’s environmental
averaged just over 130 days. During                    reviews or the environmental impacts
fiscal year 2002, most offices exceeded                that result from exploring, drilling for, or
80 days, and four offices exceeded 200                 producing oil and gas.
days.
                                                       The scope and methodology of our audit,
In 2001 and 2002, BLM approved about                   including the sites visited or contacted,
3,800 APDs annually. This number is                    are detailed in Appendices 2 and 3.
expected to increase significantly with
the April 2003 issuance of the records of              Prior Audit Coverage
decision and resource management plan
amendments for oil and gas development
                                                       Neither the Office of Inspector General
in both the Wyoming and Montana
                                                       nor the General Accounting Office has
portions of the Powder River Basin.
                                                       issued any reports during the past 5
                                                       years concerning the oil and gas permit
The processing of APDs falls under
                                                       approval process.
BLM’s broad Strategic Plan goal
category of “serving current and future
publics.” Under the Government
Performance and Results Act (GPRA) of
1993,10 agencies are required to report to
Congress on the results of their programs
and the quality of service provided to the
public. To comply with this GPRA
requirement, agencies establish goals
and objectives in their individual
strategic plans and report annually on
how well these goals are met in their
performance plans and reports.

Audit Objective and Scope
The initial focus of our audit was to
identify issues related to the
administration and management of
coalbed methane activities from
permitting through production
verification. We revised our objective to
evaluate the efficiency of BLM’s oil and
gas permit approval process because
BLM was experiencing permit
processing delays.

10
  Public Law 103-62 (5 USC, Sec. 306 and 31 USC,
Sec. 1115 & 1116).



                                                   4
Impediments to Efficient APD Processing

BLM’s permitting process was
significantly hampered by outdated land                              Average Days to Approve APDs in Fiscal Year 2002
                                                                                      by Field Office
use plans and the lack of effective                                 Canon
                                                                  Canon   City
                                                                        City
management oversight and                                                  Craig
                                                                        Craig

accountability of the application                                     Durango
                                                                    Durango
                                                                                                         Colorado
                                                           Grand.Junction
processing function. These conditions                   Grand Junction
                                                                       Meeker
                                                                      Meeker
occurred because BLM lacked                                           Dickinson
                                                                   Dickinson
monitoring and tracking strategies to                                Great Falls
                                                                  Great Falls
                                                                                                         Montana

(1) anticipate the rapid development of                               Miles City
                                                                   Miles City
                                                                       Carlsbad
new energy resources, (2) consistently                              Carlsbad
                                                                    Farmington
                                                                  Farmington
process permit applications and identify                                 Hobbs
                                                                       Hobbs
                                                                                                       New Mexico
processing bottlenecks, (3) effectively                             Rio Puerco
                                                                  Rio Puerco
                                                                        Roswell
size, align, and employ staff to optimize                            Roswell
                                                                          Tulsa
application processing, and                       Field Office
                                                                        Tulsa
                                                                         Moab
                                                                        Moab
(4) consistently interpret APD                                      SaltSalt
                                                                         LakeLake                         Utah

procedures and documentation                                             Vernal
                                                                       Vernal
                                                                       Buffalo
requirements.                                                         Buffalo
                                                                        Casper
                                                                      Casper
                                                                    GreenRiver
                                                                 Green River

As a result, processing times for drilling                           Kemmerer
                                                                   Kemmerer                             Wyoming
                                                                        Lander
applications averaged four times longer                               Lander
                                                                     Newcastle
                                                                   Newcastle
than BLM’s targeted processing time of                                 Pinedale
                                                                    Pinedale
30 to 35 days (see Figure 5). In                                       Rawlins
                                                                     Rawlins
addition, these conditions delayed                                      Worland
                                                                     Worland
                                                                 Anchorage, AK
bringing oil and gas wells into                         Anchorage, AK
                                                                 Bakersfield, CA                     Other States
                                                       Bakersfield, CA
production and payment of revenues to                              Jackson, MS
                                                                 Jackson, MS
federal and state governments. In the                             Milwaukee, WI
                                                           Milwaukee, W I

Powder River Basin alone, application                                 Reno, NV
                                                                   Reno, NV

delays resulted in millions of dollars in                                           00    100
                                                                                         100     200
                                                                                                200         300
                                                                                                           300      400
                                                                                                                    400
                                                                                                Days
unrecovered royalties related to the
                                                                                                           Figure 5
drainage of gas from federal lands.                                 Source: Data provided by BLM Miles City Field Office


The larger ripple effect of processing
delays is the loss of potential revenues to       Outdated Land Use Plans
lease holders and government royalty
recipients and the constriction of                BLM has a longstanding problem in
domestic energy choices, which                    systematically updating its land use
increases pressure on prices and the need         plans to reflect changing conditions and
to import supplies to meet demand.                emerging trends, such as the increased
                                                  demand for drilling of natural gas, in
                                                  particular coalbed methane. As a result,
                                                  oil and gas development has been



                                              5
slowed or stopped at times to wait for                          focused on changes that may have
updated plans that reflect current, or                          occurred since the plans were last
reasonably foreseeable, development.                            completed to determine what needed to
                                                                be done to update or revise them.
For example, the land use plan for the
Wyoming portion of the Powder River                             BLM identified 21 high priority land use
Basin, the Final Environmental Impact                           plans, collectively referred to as Time
Statement and Proposed Plan                                     Sensitive Plans (TSPs), that it deemed
Amendment for the Powder River Basin                            the most critical of the more than
Oil and Gas Project, issued in January                          70 ongoing land use planning efforts in
2003, was developed to update prior                             fiscal year 2002. BLM selected the
land use plans that did not effectively                         TSPs because they were related to the
address coalbed methane gas                                     development of energy resources,
development in the Basin. Prior to                              responded to nationally significant
issuance of this EIS, litigation, appeals,                      lawsuits, or had legislatively mandated
and a BLM-imposed (Wyoming State                                time frames.
Office) moratorium on APD processing
essentially halted drilling in the Basin.                       We commend BLM on its action to
                                                                address outdated land use plans, but
As a result, BLM’s Buffalo Field Office                         believe that further action is necessary to
in Wyoming anticipated that it would be                         institutionalize a continuous land use
inundated with about 2,000 drilling                             evaluation and update process. Such a
applications in fiscal year 2003, in                            process would prevent future
addition to a current backlog of                                occurrences of outdated land use plans.
1,400 drilling applications. Because of
delays and BLM’s inability to process                           Lack of Effective
APDs, the federal government has lost
about $52 million11 in unrecoverable                            Management Oversight and
royalties from 1987 through October                             Accountability
2002 in the Powder River Basin and is
losing about $24 million annually in                            BLM lacked effective management
royalties in the Basin as a result of                           oversight and accountability in the
drainage12 (see Appendix 4). Most of the                        following areas of APD processing:
$52 million occurred since 1998 when
coalbed methane drilling activity began                             Tracking and Monitoring
to intensify.                                                       Centrally Over-Sighted
                                                                     Permitting Process
To address the problem of outdated land                             Assessing Staffing Needs
use plans, BLM, in fiscal year 2001, set                            Guidance
out to update its entire planning base of                           Partnering
162 land use plans. These evaluations                               Environmental Studies and
                                                                     Documentation
11
   This figure was disclosed in a December 2002                     GPRA Goals
report prepared by the Reservoir Management Group
of BLM’s Wyoming State Office.
12
   Drainage is the migration of oil or gas, or associated
resources, across lease lines, which results in a loss of
resources without compensation to the government.



                                                            6
Tracking and Monitoring                                                     Automated Fluid Minerals Support
Inadequate APD tracking and                                                 System (AFMSS),14 which stores well
monitoring systems at the BLM field                                         data, including APD data. AFMSS,
offices visited13 made it difficult to                                      however, was not designed as a single
ascertain the processing stage of the                                       comprehensive tracking and monitoring
APD or when it would be approved.                                           system for APD approval processes.
Field offices did not have a single,
standardized tracking system, but instead                                   We believe BLM needs one system
created their own individual systems to                                     capable of tracking and monitoring the
track pending APDs within their                                             entire APD approval process. Given that
respective offices.                                                         AFMSS already has some of the data
                                                                            elements essential for a tracking and
               BLM APD Approval Process                                     monitoring system, BLM should
                       APD package received from
                       Operator at BLM field office
                                                                            evaluate whether enhancements to the
                                                                            system could result in an APD tracking
                   APD is reviewed for completeness and
                   accuracy; packages are distributed for
                                                                            and monitoring system.
                         review by BLM specialists

                                                                            To accurately track and monitor an
        Downhole reviews:                       Surface reviews:
                                                                            APD, the system must provide the
          Geological review                  Archeological review
                                                                            specific elements and management tools
         Engineering review                Wildlife Biological review
                                                                            to determine the overall status of both
                                             Realty review
                                                                            pending and individual APDs. It should
                         NEPA compliance review                             also provide a mechanism for users in
                                                                            headquarters, state, and field offices, as
                    Bureau of Indian Affairs, Bureau of
                   Reclamation, U.S. Forest Service, and
                                                                            well as in industry, to access real-time
                       other reviews, as applicable-
                                                                            APD status information. At a minimum,
                      Approval package is reviewed for                      this mechanism would include the date
                      completeness before final review
                                is conducted                                the APD was received; the dates when
                                                                            specialists initiated and completed their
                        Final review and approval by
                                 BLM official                               reviews; target approval dates; and
                                                                            explanations, if applicable, as to why
                                                            Figure 6        target approval dates may not be met.
Flowchart compiled by the Office of Inspector General based on its
 general understanding of APD approval processes at BLM field offices
visited.
                                                                            The tracking and monitoring system
These systems varied from postings on a                                     should also have the capability of
bulletin board to a spreadsheet or a                                        producing status reports. This would
shared computer drive. Data entered                                         include reports, such as aging schedules
into these locally created, informal                                        and pending activity reports, to help
systems were also entered into BLM’s                                        managers determine whether APDs were
                                                                            being processed efficiently.


                                                                            14
                                                                              AFMSS is BLM’s computer software application to
                                                                            support statutory and regulatory requirements for oil
                                                                            and gas development on public and Indian lands.
                                                                            AFMSS is designed to support management of the oil
13
  Farmington, New Mexico; Buffalo, Wyoming; and,                            and gas well life cycle and the fields where they are
San Juan Public Lands Center, Durango, Colorado.                            drilled.



                                                                        7
Should AFMSS be enhanced as a                     Centrally Over-Sighted Permitting
tracking and monitoring tool, BLM must            Process
take steps to ensure that it is not               BLM needs a coordinated and centrally
susceptible to unforeseen shutdowns.              over-sighted permitting process.
BLM recognized this problem when                  Because of BLM’s decentralized
AFMSS was shut down twice in recent               structure, permitting efficiency, practice,
years because of Indian trust rights              and output varied from field office to
litigation.15 During these periods, APD           field office. Consequently, at the field
data could not be entered, and the system         office level, staff were not held
would have been useless as a tracking             accountable for efficiently processing
and monitoring tool. BLM has been                 their portion of APD processing.
taking steps to address the continuity of
operations issue with AFMSS.                      To remedy this and emphasize the
                                                  importance of the permitting process, a
Best Practices - Drawing from other               manager should be designated to oversee
customer based information systems,               BLM’s national APD process.
BLM should explore the possibility of             Responsibilities should be linked to
allowing individual operators to access           performance standards, and the manager
the tracking system and ascertain the             held accountable for the entire APD
status of their applications without              process. In turn, state and field office
having to contact BLM field offices.              managers should be accountable for
This accessibility could be likened to the        timely and accurate processing of APDs.
tracking of a Federal Express package
using the “Track” feature of the FedEx®           Assessing Staffing Needs
website.16 Empowering operators to                BLM field offices visited17 had no
track their individual applications should        current workload analyses of the APD
reduce the time spent by field office staff       process. Although the offices had
to respond to status inquiries, give staff        completed workforce plans,18 the plans
more time to review permit applications,          did not identify the specific resources
and improve operator satisfaction.                needed to process APDs. Workforce
                                                  plans limit a field office’s ability to
We were encouraged to learn that                  determine staffing needs for APD
AFMSS allows for electronic submission            processing because the plans are budget
of APDs. Twenty-five of 31 field                  driven19 as opposed to workload or needs
offices currently receive electronic              driven.
submissions. At the present time,
however, operators cannot electronically
                                                  17
track the status of individual APDs                  Farmington, New Mexico; Buffalo, Wyoming; and,
                                                  San Juan Public Lands Center, Durango, Colorado.
submitted. The addition of this feature           18
                                                     Workforce plans are required as part of the
would move BLM closer to electronic               Department’s Strategic Human Capital Management
processing of APDs.                               Implementation Plan and are designed, in part, to
                                                  identify the skills and knowledge needed for fiscal
                                                  years 2004-2005.
                                                  19
                                                     The workforce plan’s “Skills and Knowledge
                                                  Acquisition and Recruitment Strategies” component of
                                                  the workforce plan instructs the planner that
                                                  projections of future Full-Time Equivalent needs
15
     Cobell vs. Norton.                           “should be based on the work that it is expected to
16
     Refer to www.fedex.com/us/tracking.          have the budgetary resources to support” them.



                                              8
Some of the field offices visited have                (1) Approve the application as submitted
increased and changed staffing in recent              or with appropriate modifications or
years in an attempt to keep pace with                 conditions.
increased APD approval activity.
                                                      (2) Return the application and advise the
However, processing delays still
                                                      applicant of the reasons for disapproval.
occurred. To help reduce delays, BLM
field offices need to conduct and                     (3) Advise the applicant, either in writing
periodically update workload analyses.                or orally with subsequent written
These analyses would allow managers to                confirmation, of the reasons why final
determine the optimum size and                        action will be delayed, along with the date
composition of the workforce needed to                such final action can be expected.
effectively perform required APD
processing tasks.                                Further, BLM’s implementing guidance
                                                 (Onshore Order No. 1)21 stipulates that
We commend BLM for exploring                     certain circumstances may necessitate
alternative means to filling temporary           more time to approve an APD. For
vacancies (for example, moving workers           example, delays may result during the
between field offices) until appropriate         preparation of an environmental
staffing levels are determined and               assessment; when the operator must
attained at BLM field offices. However,          correct deficiencies or omissions in its
we believe that a workload analysis is           application; or when weather conditions
the first step in understanding the              prevent BLM specialists from visiting
staffing that is needed to effectively           and evaluating the proposed well site.
perform required APD processing tasks.
                                                 In addition, BLM receives application
Guidance                                         packages that are incomplete. Some
Differences of opinion existed between           operators perceive that they can get a
BLM field office personnel and oil and           head start in the approval process by
gas operators on approval time frames            submitting APD packages as soon as
and on requirements for submitting               possible, regardless of whether the
permit applications. BLM field office            packages are complete. Other operators
personnel and the operators disagree as          submit incomplete applications through
to whether applicable regulations and            misunderstanding of application
BLM’s written guidance impose                    requirements. The CFR22 requires
mandatory time frames for the approval           specific documents and information but
of permits. According to the operators’          also includes a statement that “such
understanding of the Code of Federal             other information as may be required by
Regulations (CFR) and other                      applicable orders and notices” must be
implementing guidance, BLM must                  provided. This last item is vague and
approve or deny an APD within 30 days
after receipt of the data. However, the
CFR20 requires only that BLM take one            21
                                                    Onshore Order No. 1 states that the processing of an
of the following actions no later than           APD should be completed within 30 days of receipt,
35 days upon receipt of an APD for               provided that the APD is technically and
                                                 administratively complete.
federal lands or 30 days for Indian lands:       22
                                                    43 CFR 3162.3-1(d). This also provides for the
                                                 APD process to be initiated at least 30 days before
20
     43 CFR 3162.3-1 (h).                        commencement of operations is desired.



                                             9
contributes to incomplete application
submissions.

Partnering
Although BLM’s lack of management
and oversight has contributed to the
processing delays, some factors related
to the application process are beyond
BLM’s control. For example,
applications related to wells located on                                                     Figure 7
Indian lands and national forests require             Pipeline right-of-way, an example of an environmental
                                                                                    impact, San Juan Basin
additional processing by the pertinent                                  Office of Inspector General Photo
Indian Tribe, the Bureau of Indian
Affairs, or the U.S. Forest Service.             One field office, for example, told us the
Processing requirements for these                decision by local management to
organizations can add from 2 months to           increase documentation to reduce or
2 years to BLM approval times.                   prevent legal challenges had increased
                                                 the time required to conduct
BLM should continue to build on its              environmental assessments and
partnering with other affected federal           document the results. Environmental
and Tribal entities to reduce processing         reports that had often been less than
times for their component pieces of the          15 pages before 2001 could now exceed
application process. In this way, BLM            100 pages.
will effectively address the issues for
which it is directly responsible while           We noted that BLM has recognized
proactively working with others to               certain inefficiencies in its NEPA
reduce the overall processing time for           process and, in April 2003, as part of its
APDs.                                            implementation of the National Energy
                                                 Policy, issued various instruction
Environmental Studies and
                                                 memorandums23 to streamline
Documentation
                                                 procedures. In particular, BLM adopted
Although we did not review the
                                                 a strategy to conduct, where applicable,
adequacy of BLM’s environmental
                                                 environmental analyses on a wider
reviews, we were told by BLM field
                                                 geographic scale covering multiple
personnel that a contributing factor for
                                                 wells, as opposed to analyzing individual
long permit processing times was the
                                                 wells. This is a positive development,
inconsistent elapsed times and volume of
                                                 but BLM still needs to address the basic
documentation gathered in conducting
                                                 issue of how environmental reviews can
and documenting potential site-specific
                                                 be consistently and expeditiously
environmental impacts of oil and gas
                                                 conducted and documented while
development. See Figure 7 for an
                                                 meeting NEPA requirements.
example of the types of environmental
impacts that are analyzed and
documented.

                                                 23
                                                   BLM Instruction Memorandum Nos. 2003-146,
                                                 2003-147, 2003-151, 2003-152, and 2003-153.



                                            10
GPRA Goals                                                      Recommendations
To determine whether BLM had
quantifiable goals and measures for the
APD process, we reviewed BLM’s fiscal                           We recommend that BLM take the
year 2000 – 2005 Strategic Plan, BLM’s                          following actions to improve the
combined fiscal year 2003 Annual                                efficiency of the APD process:
Performance Plan and fiscal year 2001
Annual Performance Report, and BLM’s                            1. Establish policies and procedures to
National Energy Policy Tasks. Based on                          institutionalize a continuous evaluation
our review, we identified two goals that                        and update of land use plans in concert
related to APD processing. Neither goal,                        with BLM’s current update initiative.
however, specifically provided
                                                                2. Establish one system capable of
performance measures to evaluate the
                                                                tracking and monitoring the entire APD
relative success of the application
                                                                process, which should include operator
process.
                                                                access to application status. This system
                                                                would include capability of producing
We also reviewed the Department of the
                                                                status reports, such as, aging schedules
Interior’s goal, proposed in its draft
                                                                and pending activity reports.
Revised Strategic Plan for fiscal years
2003 – 2008. The goal was to process                            3. Establish a nationally coordinated
the permit applications in backlog status                       and centrally over-sighted APD
for oil and gas, including coalbed                              permitting process.
methane.24 Absent from the Plan,
however, was a goal to process permit                           4. Ensure that field offices conduct and
applications that were not backlogged.                          periodically update workload analyses to
                                                                determine the appropriate size and
If specific quantitative performance                            composition of the workforce needed to
measurements are not identified in goals                        efficiently process APDs.
for completing and processing drilling
permits, APD processing cannot be                               5. Consolidate, clarify, and issue
afforded the priority it deserves in                            nationwide APD application guidelines
keeping with the nation’s interest of                           that include all BLM permitting
energy development in an                                        requirements.
environmentally responsible manner.
                                                                6. Continue to work with other federal
                                                                and Tribal entities to reduce processing
24                                                              time for their component pieces of the
   According to a February 24, 2003 Federal Register
notice, the Department of the Interior’s draft 2004             application process.
Strategic Plan for fiscal years 2003 to 2008 will be the
GPRA document for the entire Department. The Plan               7. Establish procedures for completing
will not include goals and measures for every aspect
of every program. Rather, annual or long-term                   environmental studies that are timely,
operating plans or planning documents for individual            consistent among field offices, and
bureaus should contain greater specificity for discrete         comply with applicable environmental
program elements. In its final Strategic Plan, issued
after our fieldwork in September 2003, the                      laws.
Department specified that it plans to process
1,250 permit applications in backlog status, but did not
provide for a goal to process APDs that are not in
backlog status.



                                                           11
8. Amend the Department’s Strategic
Plan to include a clearly defined and
measurable goal to process APDs not in
backlog status or, in the alternative,
establish a goal in BLM’s annual or
long-term operating plans to process
APDs not in backlog status.




                                         12
                                                                                            Appendix 1
                                         Classification of Monetary Amounts

                             Source                                                Lost Revenues
             Powder River Basin Lost Royalties                                      $52,000,00025




25
  According to BLM’s Wyoming Reservoir Management Group, the federal government lost an estimated
$52 million in royalties between January 1987 and October 2002 because of gas being drained from federal
lands by wells on non-federal lands. Further, as of February 2003, the Group estimated continued drainage
royalty losses of about $2 million a month, or approximately $24 million annually. (See Appendix 4 of this
report for more details on the royalty and drainage issue.)


                                                   13
                                                                          Appendix 2
                                                                             Page 1 of 2
                                                   Scope and Methodology
The scope of our audit covered all                    process, discuss problem areas, and
federal and Indian lands under BLM’s                  identify potential solutions.
responsibility, including the subsurface
mineral estate for lands administered by           Flowcharted permitting practices
the U.S. Forest Service. The audit also             used at selected BLM field offices to
encompassed the permit process for oil              understand their processes, as well as
and gas wells, including wells that                 identify potential weaknesses and
produced coalbed methane. The time                  opportunities for improvement.
period covered by our audit was October
2000 through July 2003.                            Evaluated BLM’s automated system
                                                    for recording and storing permit
We conducted our fieldwork from                     application data and its informal
November 2002 through July 2003. To                 systems for recording permit
accomplish the audit, we visited or                 information to assess the adequacy
contacted BLM field offices located in              of the systems being used.
the major oil and gas producing basins
of the western United States. We                   Interviewed officials representing the
focused on BLM’s permit processes for               Department of the Interior, its
the Powder River Basin in Wyoming and               bureaus, and other federal, state, and
the San Juan Basin in New Mexico and                private entities to obtain their
Colorado and toured the two basins with             concerns and suggestions regarding
BLM officials to gain a greater                     the permit process. See Appendix 3
understanding of coalbed methane                    for a list of organizations visited or
production. Since at least 2001, the                contacted.
Powder River and San Juan Basins have
accounted for a significant portion of the         Reviewed procedures used by other
drilling permits issued by BLM.                     organizations to identify possible
                                                    “best practices.”
During our audit, we took the following
steps:                                             Evaluated whether BLM has
                                                    established performance indicators
 Obtained, reviewed, and analyzed                  for the permit process that
  regulations, guidance, pertinent                  effectively measured program
  documents, schedules, and other data              accomplishments.
  provided by BLM relating to the
  permit process.                                 Our audit did not address the adequacy
                                                  of the environmental reviews performed
 Interviewed BLM officials to gain an            as part of the APD process or the
  understanding of the permitting                 environmental impacts of oil and gas
                                                  exploration, drilling, and production.



                                             14
                                                   Appendix 2
                                                    Page 2 of 2


The potential environmental impacts of
coalbed methane extraction, in
particular, were the subject of litigation,
administrative appeals, and intense
scrutiny from various interested parties.

We conducted our audit, as applicable,
in accordance with the Government
Auditing Standards issued by the
Comptroller General of the United
States. Accordingly, we included such
tests of records and other auditing
procedures as we considered necessary
under the circumstances.

As part of our audit, we reviewed the
Department of the Interior’s
Accountability Reports for fiscal years
2000 through 2002, which included
information required by the Federal
Manager’s Financial Integrity Act and
BLM’s annual assurance statements on
management controls for fiscal years
2000 through 2002. Based on that
review, we determined that none of the
weaknesses reported for the Department
and BLM directly related to the
objective and scope of our audit.

We also reviewed internal controls over
the application for permit to drill process
and found weaknesses in the controls
over APD processing. These
weaknesses are discussed in the body of
the report. If implemented, our
recommendations should improve
internal controls in these areas.




                                              15
                                                                           Appendix 3
                                                                               Page 1 of 2
                               Organizations Visited or Contacted

                           Office                                    Location
U.S. Department of the Interior:
Office of Assistant Secretary for Land and Minerals         Washington, D.C.
    Management*
Office of Deputy Assistant Secretary for Human Resources*   Washington, D.C.
Bureau of Land Management:
Washington Office
        Fluid Minerals Group*                               Washington, D.C.
        National Energy Office*                             Washington, D.C.
California State Office*                                    Sacramento, California
        Bakersfield Field Office*                           Bakersfield, California
Colorado State Office*                                      Lakewood, Colorado
        Canyon of the Ancients National Monument*           Dolores, Colorado
        Columbine Field Office*                             Bayfield, Colorado
        Mancos/Dolores Field Office*                        Dolores, Colorado
        Pagosa Springs Field Office*                        Pagosa Springs, Colorado
        San Juan Public Lands Center                        Durango, Colorado
Montana State Office*                                       Billings, Montana
        Miles City Field Office*                            Miles City, Montana
New Mexico State Office                                     Santa Fe, New Mexico
        Amarillo Field Office*                              Amarillo, Texas
        Farmington Field Office                             Farmington, New Mexico
Utah State Office*                                          Salt Lake City, Utah
        Moab Field Office*                                  Moab, Utah
        Vernal Field Office*                                Vernal, Utah
Wyoming State Office                                        Cheyenne, Wyoming
        Buffalo Field Office                                Buffalo, Wyoming
        Casper Field Office                                 Casper, Wyoming
        Pinedale Field Office*                              Pinedale, Wyoming
        Rawlins Field Office*                               Rawlins, Wyoming
        Reservoir Management Group                          Casper, Wyoming
Bureau of Indian Affairs:
        Office of Audit and Evaluation*                     Washington, D.C.
        Division of Energy and Minerals Resources*          Lakewood, Colorado
        Navajo Regional Office*                             Gallup, New Mexico
        Navajo Region Branch of Real Estate Services*       Window Rock, Arizona
        Rocky Mountain Regional Office*                     Billings, Montana
        Southwest Regional Office*                          Albuquerque, New Mexico
        Southern Ute Agency*                                Ignacio, Colorado
Minerals Management Service:
        Gulf of Mexico Outer Continental Shelf Region       New Orleans, Louisiana
        New Orleans District Office                         New Orleans, Louisiana
        Farmington Indian Minerals Office                   Farmington, New Mexico




                                           16
                                                                             Appendix 3
                                                                                Page 2 of 2


U.S. Geological Survey:
         Central Regional Office, Energy Resources Team           Denver, Colorado
U.S. Department of Agriculture:
         Office of Inspector General*                             Washington, D.C.
         U.S. Forest Service, Carson National Forest              Bloomfield, New Mexico
U.S. Environmental Protection Agency:
         Region VIII                                              Denver, Colorado
State of Colorado:
         Oil and Gas Conservation Commission*                     Denver, Colorado
         Office of the State Auditor*                             Denver, Colorado
State of New Mexico:
         Energy, Minerals and Natural Resources Department, Oil
         Conservation Division                                    Aztec, New Mexico
         Office of the State Auditor*                             Santa Fe, New Mexico
State of Utah:
         State Auditor’s Office*                                  Salt Lake City, Utah
State of Wyoming:
         Wyoming Oil and Gas Conservation Commission*             Casper, Wyoming
         State Auditor’s Office*                                  Cheyenne, Wyoming
Indian Tribal Governments:
         Southern Ute Indian Tribe*                               Ignacio, Colorado
         The Navajo Nation*                                       Window Rock, Arizona
         Ute Mountain Ute Tribe*                                  Towaoc, Colorado
Environmental Organization:
         Powder River Basin Resource Council*                     Sheridan, Wyoming
Industry Associations and Companies:
         American Petroleum Institute*                            Washington, D.C.
         BHP Billiton                                             Waterflow, New Mexico
         Banko Petroleum Management*                              Lone Tree, Colorado
         British Petroleum*                                       Houston, Texas
         Burlington Resources*                                    Farmington, New Mexico
         Domestic Petroleum Council*                              Washington, D.C.
         Independent Petroleum Association of Mountain States     Denver, Colorado
         Office Technology Systems*                               Wheat Ridge, Colorado
         Walsh Engineering and Production Corporation*            Farmington, New Mexico
         Williams Field Services*                                 Tulsa, Oklahoma
*Offices contacted only




                                            17
                                                                                               Appendix 4
                                                                Royalties and Drainage
As the landowner, the federal                              or by requiring the lessee to pay
government receives a payment, known                       compensatory royalties.28
as a royalty,26 for its share of the
revenues27 derived from the sale of oil                    Drainage is significant in oil and gas
and gas. When oil and gas production is                    regions that have mixed ownership (state
delayed, the loss in revenues and                          and private) of surface property,
corresponding royalties can be                             subsurface minerals, and close spacing
substantial. For example, we computed                      of wells, such as in the Powder River
that the average gas well in the San Juan                  Basin. The Reservoir Management
Basin of New Mexico and the Powder                         Group of the BLM’s Wyoming State
River Basin of Wyoming, in recent                          Office is responsible for monitoring
years, paid royalties of about $275,000                    drainage in Wyoming. In a December
and $22,000, respectively.                                 2002 report, the Group estimated that
                                                           $52 million in royalties were lost from
Royalties can be lost by drainage, a                       1987 through October 2002.29 Most of
condition that develops when drilling                      this amount occurred since 1998, which
activity on federal leases does not keep                   coincides with the increase in coalbed
pace with drilling on adjacent state and                   methane drilling activity in the Basin.
privately owned tracts of land. Because                    At the end of our fieldwork, the Group
oil and gas naturally move (or drain)                      was processing 127 drainage cases and
toward areas of reduced pressure created                   estimated that the federal government
by nearby wells, oil and gas that lie                      loses about $2 million a month or
beneath federal land can drain and be                      $24 million annually in royalties.
produced from wells located on state and
private land.                                              Although more than 500 drainage
                                                           protection wells have been approved by
The royalties associated with the drained                  BLM in the Powder River Basin since
minerals are considered permanently lost                   January 2000, litigation associated with
because court decisions have generally                     inadequate land use plans has slowed or
ruled that landowners may produce all                      halted the drilling of additional
oil and gas from their land, including                     protection or offset wells.
that which migrates onto their land
through drainage. BLM can mitigate the
effects of drainage by requiring lessees
to monitor their leases and, if necessary,
drill an offset well to prevent drainage,


26
   The royalty rate is usually one-eighth of the
operator’s sales proceeds, but can be one-sixth or
some other agreed upon sharing arrangement between
                                                           28
the lessee and landowner.                                     A compensatory royalty is a royalty paid by the
27
   Royalty revenues are distributed according to           operator to the landowner in lieu of drilling an offset
federal law, which generally requires a 50/50 share        well to prevent drainage.
                                                           29
between federal and state governments.                        None of this amount was applicable to Indian lands.



                                                      18
                                                        Appendix 5
                 Status of Audit Recommendations

Recommendation    Status                  Action Required

     1-8         Unresolved    Concur or nonconcur with each
                  Additional   recommendation and provide information
                 Information   on actions taken or planned to implement
                   Needed      each recommendation, including target
                               date and title of official responsible for
                               implementation.




                         19
How to Report Fraud, Waste, Abuse, and
Mismanagement
Fraud, waste, and abuse in Government are the concern of
everyone – Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and
abuse related to Departmental or Insular Area programs and
operations. You can report allegations to us as follows:

     Mail:      U.S. Department of the Interior
                Office of Inspector General
                Mail Stop 5341-MIB
                1849 C Street, NW
                Washington, D.C. 20240

    Phone:      24-Hour Toll Free           (800) 424-5081
                Washington Metro Area       (202) 208-5300
                Hearing Impaired            (202) 208-2420
                Fax                         (202) 208-6081
                Caribbean Region            (340) 774-8300
                Hawaii Field Office         (808) 525-5310

    Internet: www.oig.doi.gov/hotline_form.html

                 U.S. Department of the Interior
                  Office of Inspector General
                       1849 C Street, NW
                    Washington, D.C. 20240
                         www.doi.gov
                        www.oig.doi.gov
